                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11060041                                                                        Page 1 of 1



                 OIG conducted an inquiry into an allegation of plagiarism in two NSF proposals
                                     2
         (Proposal 11 and Proposal 2 ). We concluded there was sufficient evidence to refer an
         investigation of the PI (Subject 13) and Co-PI (Subject 24) of the Proposals to the University.

                  The University concluded, based on a preponderance of the evidence, that Subjects 1 and
         2 recklessly committed plagiarism, which the University deemed a departure from accepted
         practices. It required that their grant proposals be reviewed for five years; that they develop and
         instruct an ethics workshop for three years; that their Dean and Department chair be notified of
         the finding and be made responsible for monitoring their work; and that their 2012 annual review
         reflect the finding.

                The University subsequently conducted an inquiry on the former post-doc (Subject 3) 5
         whom Subjects 1 and 2 had said was directly responsible for the plagiarism. Its inquiry
         determined an investigation was warranted; however, in lieu of the investigation, the University
         and Subject 3 signed a settlement agreement, precluding him from seeking University
         reemployment for seven years and requiring that he waive and release his rights and claims.

                 Our independent investigation concluded that Subjects 1 and 2 were not directly
         responsible for the plagiarism and that the actions taken against them by the University protect
         the federal interest. Our investigation further concluded, by a preponderance of the evidence,
         that Subject 3 knowingly committed plagiarism, which we deemed a significant departure from
         accepted practices of the relevant research community. We recommended actions to be taken to
         protect the federal interest. The Senior Advisor to the Director concurred with our
         recommendations.

                This memo, the attached Report of Investigation, and the decision of the Senior Advisor to
         the Director constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSITIVE                                                                                    SENSITIVE




      National Science Foundation
        Office of Inspector General


                                         ·.·.·il'~.··~ .

                                    •.. ~N~~-t-,, ,..·.-S
                                                       . ·····F··... ~•.I.·. ·•·
                                                    r·~~




                                            .....
                                    I
                                        ~                              «


                 Report of Investigation
                Case Number A11060041
                          October 30, 2013

                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                                   NSF OIG Form 22b (1/13)
 SENSITIVE                                                                               SENSITIVE



                                      Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 10 sources from which approximately 80 lines, 3 figures, and 17
                 embedded references were copied into 2 NSF proposals. OIG referred
                 investigation of the matter to the home institution of the PI (Subject 1) and co-Pis
                 (Subjects 2 and 3) on the proposals.

University
Investigation:   The University concluded, based on a preponderance of the evidence, that
                 Subjects 1 and 2 recklessly committed plagiarism, deemed a departure from
                       J   ,   ,.


                 acc.eptea practleesr

                 The University required that the grant proposals of Subjects 1 and 2 be reviewed
                 for 5 years; that they develop and instruct an ethics workshop for 3 years; that
                 their Dean and Department chair be notified of the finding and be made
                 responsible for monitoring their work; and that their 2012 annual review reflect
                 the finding.

                 Based on the fmdings of its investigation involving Subjects 1 and 2, the
                 University conducted an inquiry focusing on Subject 3, which determined there
                 was sufficient evidence to substantiate Subject 3 's direct involvement in the
                 plagiarism and proceed to investigation. In lieu of further investigation, however,
                 the University instead arrived at a settlement agreement with Subject 3, that
                 precludes him from seeking University reemployment for 7 years and requires
                 that he waive and release his rights and claims.

OIG
Assessment:
                 The actions taken by the University against Subjects 1 and 2 protected federal
                 interests. The conduct of Subject 3 merits further action by NSF.
                 • The Act: Subject 3 plagiarized 88 lines, 3 figures, and 27 embedded
                     references from i 1 sources into two NSF proposals.
                 • Intent: Subject 3 acted knowingly.
                 • Standard of Proof: A preponderance of evidence supports the conclusion
                     that Subject 3 co:rinnitted plagiarism.
                 • Significant Departure: Subject 3 's plagiarism represents a significant
                     departure from accepted practices.
                 • Pattern: Three other NSF proposals Subject 3 drafted contained plagiarism.

OIG
Recommends:
                 •   Make a finding of research misconduct against Subject 3.
                 •   Send Subject 3 a letter of reprimand.
                 •   Require certifications from Subject 3 for a period of 1 year.
                 •   Require assurances from Subject 3 for a period of 1 year.


                                                 1
SENSITIVE                                                                        SENSITIVE



            •   Require certification of attending a comprehensive responsible conduct of
                research training class within one year.




                                           2
    SENSITIVE                                                                                                                                                                  SENSITIVE



                                                                                                                            OIG's Inquiry
                                                                                                                                                                                      1
        OIG conducted an inquiry into an allegation of plagiarism in an NSF proposal (Proposal 1 ).
We reviewed Proposal 1 and found 47 lines; 16 embedded references, and two figures copied from
six sources? Our review of another NSF Proposal (Proposal 23) found 33lines, one embedded
reference, and one figure copied from four sources. 4 The following chart illustrates our findings:

        Source                         Proposal!                                                                                                            Proposal2
        A             16 lines, 9 embedded references
                                                                                                                                        !
        B             10 lines
        c             5 lines, 1 figure, 3 embedded references
        --            --                                           ..                       .~

        :;_;          V    .i..i.ii,__.U, •   ;.....;,.;,;,;_,-...,-..._~;..."-£-;_;.,..;,.,_.,;._;..,;...i_-..;.,....:;;




        E             4 lines, 1 figure
        F             4lines
        G                                                                                                                               8 lines, 1 embedded reference
        H                                                                                                                               9 lines
        I                                                                                                                               8 lines
        J                                                                                                                               8 lines, 1 figure
        Total         47 lines, 2 figures, 16 embedded references                                                                       33 lines, 1 figure, 1 embedded reference

        We contacted the Proposals' PI (Subject 15) and Co-PI (Subject 2 6) regarding the
allegations. 7 In their joint responses, 8 they acknowledged "that we didn't put appropriate references
against some sentences where it deserves" adding that "since we did use most of those source
documents in our list of references, it at least shows that we did acknowledge their important
contribution in the field. " 9 They asserted that "our intention was never to hide appropriate
references or copy directly and take credit for that write-up." 10

               Subjects 1 and 2 explained that:

                      During the course of proposal preparation, a lot of our focus stays
                      on the proposed concept development, clearly defining the
                      hypothesis and research objectives as well as summarizing our
                      own preliminary data and technical approach sections. As a result,
                      we depend sometimes on our students and associates for some of
1
    Tab 1
                                                                                                                                                        (Subject 2). Institution:.


3 Tab 2: sourcesiA.-F . sour.celsiAI'IBI,ICI,IDI,lanldiF.arleiijolurnlllalllart.icllelsl;SlolurlcleiE.islalwlelblsl·te.••••
  Tab 3: 11111      111                                                                                           11       "PI: Subject I.
Co-PI: Subject 2. Institution: University. Awarded.
4
  Tab 4: Sources G-J. Sources G, H, and J are ournal                          Source I is a website.
5


7
  Tab 4. We did not .contact Subject 3 because, unlike Subject 2, he was not a named Co-PI on Proposal2.
8
  Tab 5. Subjects 1 and2 are spouses.
9
  Tab 5, Response 2, pg 2. All quotations herein are sic, with emphasis as in original.
10
   Tab 5, Response 2, pg 2.


                                                                                                                                 3
     SENSITIVE                                                                                           SENSITIVE


                     the literature review part of the writing. Sometimes due to
                     communications gap between our students and us, these kinds of
                     errors happen, which are truly very unfortunate mistakes. For
                     example, the write up in question for [Proposal 1] was originally
                                                                             12
                     sent to us by [Subject 3 11 ], a co-PI in this proposal

    They said they "trusted [Subject 3] as a co-PI for his professional judgment for the literature review
    aspects of this proposal," but said they are responsible for not "validating all the citations that he
    used." 13 Subjects 1 and 2 concluded that ~'We cannot avoid our responsibility for such mistakes.
    And we do apologize for that." 14

             The Subjects provided a corroborating email from Subject 3, stating "I am feeling very
    terrible with this issue and it will haunt me for life. Especially, I lost your trust on me, which I do
    not think I can gain again. I never did such a terrible mistake in my entire life and I can never
    forgive myself for this." 15 The email also detailed additional instances of inadequate citation. 16

            The response did not dispel the allegation. First, Subjects 1 and 2 acknowledged their
j   responsibility for the copied material. Second, the totality of identified plagiarism could not be
    attributed to Subject 3, who was not a Co-PI on Proposal2Y Last, Subjects 1 and 2 seemed to
    demonstrate a lack of understanding on appropriate citation when they said that insertion of a
    reference near verbatim copying would have been sufficient. We concluded there was sufficient
    evidence to proceed to an investigation related to Subjects 1 and 2.


                                    University Investigation and Adjudication

           Consistent with our policy, we referred the investigationto the University. 18 The University
    convened a committee, which produced a report that it provided to our office. The report was
    subsequently remanded to the committee by the Uruversity due to procedural errors.

            The University convened a new Committee, which produced a second report (Report) that it
    provided to our office with attachments. 19 The Committee conducted interviews and reviewed 12
    state and federal grant proposals Subjects 1 and 2 submitted?0 The Report concluded, based on a
    preponderance of the evidence, that Subjects 1 and 2 were "reckless in [their] attribution practices
    during the time period covered by this investigation, either directly through [their] own attribution


    11• • • • • • • • • • • • • • • • • • • • • •
    12
       Tab 5, Response 2, pg 3.
    13
       Tab 5, Response 3, pg 1.
    14
       Tab 5, Response 2, pg 3.
    15
       Tab 5, Response 3, pg 1.
    16
       Tab 5, Response 3, pg 3-4.
    17
       Subject 3 was not named on Proposal2's cover page, but the proposal did contain his Biographical Sketch.
    18
       Tab 6.                                                                      '
    19
       Tab 7.
    20
       Tab 7, Exhibits, Exhibit 22. Six of the 12 proposals were NSF proposals: Proposal I, Proposal2,·····
    (Proposal3),                    (Proposal4),                  ProposalS), and                (Proposal6). Proposals
    1-6 named Subject 1 as PI and Proposals 1-5 named Subject 2 as a Co-PI.


                                                              4
     SENSITIVE                                                                                            SENSITIVE


omissions or through insufficient monitoring of graduate student and post-doctoral proposal
contributions."21 Specifically, it stated:

                  Because of the way in which the research laboratory of [Subject 1]
                  and [Subject 2] utilized research assistants and postdoctoral
                  researchers, it is impossible to show that the Respondents
                  themselves plagiarized, i.e. that not all the plagiarism originated
                                                                                   22
                  from postdoctoral researchers, students, ancl/or collaborators.

It found that Subjects 1 and 2 exhibited "insufficient review and correction"23 during proposal
preparation since:

                  Copying of material is usually identifiable to careful readers who
                  are mentors of their junior associates and who are also experts in
                  their fields. The Committee finds that the Respondents should have
                  identified a pattern of plagiarism among their collaborating post-
                  doctoral researchers or graduate students; and that they had the
                  opportunity to address the problem. 24

It added that "The Respondents are ... responsible for the content of their proposals, and there is a
clear, persistent pattern of plagiarism in the materials analyzed." 25 It deemed their actions a
significant departure from accepted practices.26

         The Committee's investigation included statements regarding Subject 3's culpability. It
found that Subject 3 "acknowledged that he did not provide proper citations in the 2 proposals
identified by NSF" and "that the 3 other proposals for which he wrote first drafts may also contain
similar problems." 27 It also found that "When asked about whether one should use quotation marks
when copying a sentence or paragraph, [Subject 3] did not have an answer" despite his statement
that "he received 'guidance' about proper citation procedures, and that [Subjects 1 and 2] talked
about this subject during group meetings;" 28 The Committee, however, noted that Subject 3 did not
draft all of the proposals in question and could not therefore be responsible for the totality of acts, 29

        The University's Deciding Official30 accepted the Committee's report and imposed the
following actions recommended by the Committee: Subjects 1 and 2's grant proposals must be
reviewed using plagiarism software for five years; they must develop and instruct an "Ethics of
Scientific Publishing" workshop for three years; their Dean and Department Chair were notified of


21
   Tab 7, Investigation Report, pg 11.
22
   Tab 7, Investigation Report, pg 1.
23
   Tab 7, Investigation Report, pg 9.
24
   Tab 7, Investigation Report, pg 10.
25
   Tab 7, Investigation Report, pg 1.
26
   Tab 7, Investigation Report, pg 1.
27
   Tab 7, Investigation Report, pg 6. The three other proposals are Proposals 3 and 4, and a state proposal.
28
   Tab 7, .Investigation Report, pg 6.                   ·                          .
29
   Tab 7, Investigation Report, pg 1. Subject 1 was sole Pion Proposal6; Subject 2 was sole PI on two NIH grants.
w                                                                                                     '



                                                          5
 SENSITIVE                                                                                  SENSIIDTE



the research misconduct fmding and made responsible for monitoring their work; and their 2012
                                                        31
annual review reflected the research misconduct fmding.

          Subjects 1 and 2 strongly disputed the Committee's conclusions in a response they provided
                                                32
both to the I Iniversity and to om office



                             University Inquiry and Adjudication of Subject 3

        Based on the investigation, a University Official (Official)33 conducted an inquiry into
allegations of plagiarism against Subject 3. The Official produced a report (Inquiry Report) that was
provided to our office with attachments. 34 She determined that [Subject 3] "appears to have
                                                                               35
committed research misconduct by plagiarizing in multiple grant proposals." Specifically, she
said:

                   From listening to the interview, 36 [Subject 3] freely admitted to
                   putting together the draft of the proposal and that he copied
                   passages into the proposal word for word directly out of references
                   without citing the references. He claims this was done because he
                   was in a hurry in putting the draft together. He claims that because
                   of the time cfUflch in getting the proposal written and submitted to
                   the funding agency, the passages were never cited or for that
                   matter put in quotation marks. He claims that it was never his
                   intention to leave the copied passages in the proposal without
                   citing. He admits it was a mistake on his part and not intentional. 37

       The Inquiry Report concluded there was sufficient evidence to substantiate the allegation
and proceed to investigation, but that it would not do so pending the negotiation of a settlement
agreement between the University and Subject 3. 38 The signed agreement precluded Subject 3 from
seeking University reemployment for seven years and required he waive and release his rights and
claims "based upon wrongful discharge, defamation, invasion of privacy, alleged discrimination of
any kind, any requests for public records, and any other claims arising in tort or in contract."39


                                            OIG's Independent Review

        OIG assessed the Report and Inquiry Report for accuracy and completeness. We found both
to be accurate and complete and further found that the University followed reasonable procedures,

31
     Tab 7, DO Decision.
32
     Tab 8.


33~~···················-
34
35
36
   Tab 9.
   Tab 9, pg 1.
   The interview refers to the interview of Subject 3 conducted during the investigation.
37
   Tab 9, pg 2.
38
   Tab 9, Inquiry Report Cover Memo, pg 1.
39
   Tab 10.


                                                             6
     SENSITIVE                                                                                               SENSITIVE



and produced an acceptable evidentiary record. However, for reasons discussed beloW, our
conclusions differ from those of the University. Accordingly, we adopted its fmdings in part, but
could not accept the Report in its totality in lieu of conducting our own investigation.


                                                 OIG's Investigation

        Our investigation initially sought to clarify the party or parties directly responsible for
inclusion of the plagiarized material in Proposals 1 and 2. We concluded that Subject 3 was directly
responsible for the plagiarism. First, Subject 3 acknowledged drafting and/or being significantly
involved in Proposals 1 and 2. Second, and most crucially, a review of Subject 3 's drafts of
Proposals 1 and 2 confirmed that he introduced the copied text into the proposals. 40

        We further concluded that Subject 3 was directly responsible for the plagiarism in Proposals
3, 4, and 5. He acknowledged drafting and/or being significantly involved in Proposals 3 and 4. 41
Additionally, although Subject 3 said he was not involved in Proposal5,42 our review confirmed
Subject 1 and 2's assertion that Proposal 5 included identical material from a non-NSF proposal to
which Subject 3 acknowledged he contributed. 43

        To better assess whether Subject 1 and 2 exhibited a pattern of plagiarism, we reviewed two
NSF proposals Subject 144 and Subject 245 each submitted as sole PI. We identified no substantive
plagiarism. Similarly, we identified no plagiarism in three recent proposals they submitted. 46 Based
on the totality of the evidence, we concluded that Subjects 1 and 2 were not directly responsible for
the plagiarism, and that the protection of federal interests does not require action beyond that ta.Jcen
by the University.

        Our investigation therefore focused on Subject 3, who although not currently employed in
the U.S., could return to U.S. employment We contacted Subject 3, invited his comments on the
Inquiry Report, and asked him to respond to specific questions and provide his CV. 47 Subject 3
provided his CV and responded only that he had not taken a course on research ethics, had not been
instructed about plagiarism, and had not taken a grant writing course:48

       Were-reviewed Proposals 1 and 2 relative to Subject's 3 admission of additional copied
material. 49 We identified an additional eight lines and 10 embedded references from a journal


40
   Tab 11, Exhibits 6 and 7. Subjects 1 and 2 provided these documents in response to a request for comment on the
subsequently remanded report.
41
   Tab 7, Investigation Report, pg 6.
42
   Tab 7, Investigation Report, pg 6-7.
43
   The non-NSF proposal was a state grant proposal (Tab 7, Investigation Report, pg 6). The Subject's assertions appear
at Tab 8,          Analysis Final, pgs 16 and 24.               '
                    and       sal6. The University reviewed Proposal 6 as part of its investigation.

                                                            This finding is consistent with their statement that they used
personal funds to purchase plagiarism detection software.
47
   Tab 12.
48
   Tab 13.
49
   Tab 5, Response 3, pg 3-4.


                                                            7
 SENSITIVE                                                                                                                                    SENSITIVE



::)rticle in Proposal1. 50 We concluded, by a preponderance of the evidence, that Subject 3
appropriated 88 lines, 3 figures, and 27 embedded references from 11 sources into Proposals 1 and
2 without giving appropriate credit. We concluded that his act met the federal definition of
plagiarism. Additionally, based on Subject 3 's statements, particularly his admission that he
inserted the text without citation or reference because of time pressures, we concluded Subject 3
committed the plagiarism knowingly. The Subject was wholly educated outside the U.S.(other than
his then-current University postdoc position), 51 and claims he never received formal education ·
about plagiarism. 52 Despite these facts, it is clear from his admission that he had simply copied and·
pasted material into the proposals without adequate attribution and that the Subject understood the
nature of, and prohibition against, plagiarism.

        To determine whether Subject 3 's acts were a significant departure from accepted practices
of the relevant research community, we first examined the University's practices. Based on the
Report and Inquiry Report, such acts are clearly contrary to the practices of the University that then
employed Subject 3. We then examined guidelines of the journal publisher in whose journals
Subject 3 frequently publishes, 5 3 and found extensive resources related to plagiarism. 54 Similarly, a
professional society at whose conferences the Subject frequently presented has a policy and
procedure for addressing plagiarism claims. 55 We concluded Subject 3's acts were a significant
departure from accepted practices of his research communities.

        Lastly, our review of Proposals 3, 4, and 5 found Proposal 3 contained roughly 38 copied
lines, Proposal 4 contained roughly 20 copied lines, and Proposal 5 contained roughly 22 copied
lines. We determined the Subject exhibited a pattern of plagiarism.


                                                        OIG's Assessment

        A fmding of research misconduct by NSF requires (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of
the evidence. 56

                                                                  The Acts

        The University concluded, and we agree, that Subject 3 plagiarized 88 lines, 3 figures, and
27 embedded references from 11 sources into two NSF proposals. We determined that Subject 3's
actions constituted a significant departure from accepted practices.



50
   Tab 14.
51
   Tab 13, pg 2.
52
   Tab 13, pg 1.
53
           whose j oumals include:   l!ll!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!l!!!!!·····




                                                                         8
     SENSITIVE                                                                             SENSITIVE




        We concluded that Subject 3 acted knowingly based on his own admission that he inserted
text without citation or reference due to time pressures.

                                                   Standard o[Proo[

        We concluded that Subject 3 's actions and intent were proven based on a preponderance of
the evidence.

       We conclude by a preponderance of the evidence, that Subject 3 knowingly plagiarized,
thereby committing an act of research misconduct. 57

                                          ·OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant
             impact on the research record, research subjects, other researchers,
             institutions or the public welfare; and (5) Other relevant
             circumstances. 58

                                                     Seriousness

        Subject 3 's actions are a violation of the standards of scholarship and the tenets of general
research ethics. Copied text serves to misrepresent one's body of knowledge, presenting reviewers
with an inaccurate representation of a proposal's respective merit. Additionally, his "time-saving"
strategy of copying material without adequate attiibution served to implicate Subjects 1 and 2 in the
time-consuming investigation process.

                                                       Pattern

        We concluded that three other NSF proposals contained copied material, constituting a
pattern of plagiarism.

                                                   Recommendation

Based on the evidenc:e, OIG recommends that NSF:
       • Send the Subject a letter of reprimand notifying Subject 3 that NSF has made a fmding
           of research misconduct. 59        ·



57
   45 C.P.R. part 689.
58
   45 C.P.R. § 689.3(b).
59
   A Group I actioJ.?. 45 C.P.R. 689.3(a)(l)(i).


                                                         9
 SENSITIVE                                                                               SENSITIVE



        •   Require the Subject to certify to the Assistant Inspector General for Investigations
             (AIGI) his completion of a responsible conduct of research training program and provide
             documentation ofthe program's content within 1 year ofNSF's finding. 60 The
            instruction should be in an interactive fomiat (e.g., an instructor-led course) and
             spgcifically includg infOrmation rggarding appropriate citation.

For a period of 1 year as of the date ofNSF's finding:
       • Require, for each document (proposal, report, etc.) to which the Subject contributes for
           submission to NSF (directly or through his institution),
               o the Subject to submit a contemporaneous certification to the AIGI that the
                   document does not contain plagiarism, falsification, or fabrication. 61
               o the Subject to submit contemporaneous assurances from a responsible official of
                   his employer to the AIGI that the document does not contain plagiarism,
                   falsification, or fabrication. 62


                          The Subject's Response to Draft Investigation Report

       We provided the Subject with a copy of our draft report and attachments for comment. The
Subject chose not to respond to our report. He did however note that he could not currently locate a
responsible conduct of research training program in India, but that he would continue looking for
such a program.




60
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
61
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
62
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).


                                                             10
                                 NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




                                                                                 APP n1 ZD14



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear D r . -




                                                             As documented in the attached
Investigative Report prepared by NSF's Office of Inspector General (OIG), these proposals
contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defmed as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community;
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

Your proposals to NSF contained substantial copied material: 88lines, 3 figures, and 27
embedded references copied from eleven sources. Your submission of proposals with substantial
copied material constitutes plagi[l[ism and meets the applicable definition of "research
                                                                                                 Page2
misconduct" set forth in NSF's regulations. Pursuant to NSF's regulations, the Foundation must
also determine whether to make a finding of misconduct based on a preponderance of the
evidence. 45 CFR 689.2(c). After reviewing the Investigative Report, in particular the OIG's
analysis of your other proposal, NSF has determined that, based on a preponderance of the
evidence, you acted knowingly and that your actions constituted a significant departure from
accepted practices of the relevant research community. I am, consequently, issuing a finding of
research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that art institutional representati,.re certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct and the fact it was not an isolated event. I have also
considered other relevant circumstances. 45 CFR 689.3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

    •   Within one year of the date of this notice, you must complete a responsible conduct of
        research training program, for which the instruction should be an interactive format (e.g.,
        an instructor-led course) and which specifically includes plagiarism. You must provide
        documentation of the program's content and proof of its completion to the OIG;
   •    For a period of one year from the date of this notice, you are required to submit
        certifications to the OIG that any proposal or report you submit to NSF as a Principal
        Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material;
        and
   •    For a period of one year from the date of this notice, you are required to submit
        assurances to the OIG from a responsible official of your employer that any proposal or
        report you submit to NSF as a Principal Investigator (PI) or co-PI does not contain
        plagiarized, falsified or fabricated material.


All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.
                                                                                               Page 3

Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become fmal.

For your information, we are attaching a copy of the     fJu•-u.un-   regulations. Should you have
any questions about the foregoing, please                             Deputy General Counsel, at
(703) 292-8060.



                                                       Sincerely,


                                                  7~
                                                c.; Fae Korsmo         .
                                                       Senior Advisor to the Director



Enclosures:
Investigative Report
45 CFR Part 689
